GR-90-98-027
U.S. DEPARTMENT OF JUSTICE
 

Audit Report
 
OFFICE OF COMMUNITY ORIENTED POLICING SERVICES
GRANTS TO THE LAS VEGAS PAIUTE TRIBAL POLICE, NEVADA
GR-90-98-027
JUNE 1998
 
  
EXECUTIVE SUMMARY
 
 
The Office of the Inspector General, Audit Division, has completed an audit of two
grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented
Policing Services (COPS), to the Las Vegas Paiute Tribal Police (LVPTP), Nevada. The LVPTP
received a grant of $75,000 to hire one sworn officer under Funding Accelerated for
Smaller Towns (FAST), and $75,000 to hire one sworn officer under the Universal Hiring
Program (UHP). The purpose of the additional officers under each of the grant programs is
to enhance community policing efforts. 
In brief, our audit determined that the LVPTP violated the following grant conditions:


- The LVPTP generally was not in compliance with the grant reporting requirements. The
    Department Initial Report understated the number of sworn officers and was not submitted
    timely. Also, the COPS Officer Progress Reports for 1996 and Department Annual Reports for
    calendar years 1995 and 1996 were not submitted. In addition, 9 of 13 required Financial
    Status Reports were not submitted timely.


#####